Audit Report




OIG-11-074
SAFETY AND SOUNDNESS: Failed Bank Review of First National
Bank of Davis
June 08, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                               June 08, 2011


             OIG-11-074

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY

             FROM:                 Jeffrey Dye /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of the First National Bank of Davis,
                                   Davis, Oklahoma


             This memorandum presents the results of our review of the failure of the First
             National Bank of Davis (FNB Davis) located in Davis, Oklahoma. FNB Davis was
             established in 1900, serving commercial, agricultural, and consumer customers in
             Davis and three surrounding counties. OCC closed FNB Davis and appointed the
             Federal Deposit Insurance Corporation (FDIC) as receiver on March 11, 2011. As of
             December 31, 2010, FNB Davis had approximately $90.2 million in total assets and
             $68.3 million in total deposits. FDIC estimated that the loss to the Deposit
             Insurance Fund is $26.5 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of FNB Davis that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver, and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
             five year period before the bank’s failure, and (3) interviewed OCC personnel.

             We conducted this performance audit from March 2011 through May 2011 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-074
Page 2

Causes of Failure of the First National Bank of Davis
OCC appointed FDIC as receiver on the following grounds: (1) the bank
experienced a substantial dissipation of assets or earnings due to violation of
statute, regulation, or unsafe or unsound practice; (2) the bank’s violations of law,
regulation, or unsafe or unsound practices were likely to seriously prejudice the
interests of the institution's depositors or the Deposit Insurance Fund; (3) the
bank’s losses depleted all or substantially all of its capital and there was no
reasonable prospect for the bank to become adequately capitalized; and (4) the
bank was critically undercapitalized.

The primary cause of FNB Davis’ failure was unsafe and unsound lending practices
including imprudent underwriting, violations of the bank’s legal lending limit
regarding two related borrowers, and failing to identify loan losses. Due to these
unsafe or unsound practices and violations of law, OCC identified $8.6 million in
loan losses that FNB Davis had failed to recognize. OCC noted that the majority of
these losses were related to extensions of credit to the two borrowers whose loan
relationships violated the bank’s legal lending limit. The combination of loans to
these borrowers and their related interests totaled almost $12 million, greatly
exceeding FNB Davis' legal lending limit of $1.22 million as of December 31, 2010.


Conclusion
We determined that an in-depth review of the FNB Davis’ failure is warranted based
on the nature of the bank’s unsafe and unsound lending practices. We anticipate
completing the in-depth review in March 2012.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of the failure
of FNB Davis; and that it has no concerns with our determination that an in-depth
review of the bank’s failure is warranted. The response is provided as Attachment
1. A list of the recipients of this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-074

       Attachment 1
Management Response
                                                   OIG-11-074

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
